APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A

Opinion in the United States Court
of Appeals for the Federal Circuit,
2020-1995
(March 8, 2021) . . . . . . . . . . . . App. 1

Appendix B

Memorandum and Order in the
United States District Court
Easter District of Missouri
Southeastern Division, Case No.
1:19-cv-00039-SNLJ
(March 20, 2020) . . . . . . . . . . App. 12

Appendix C

Order of Dismissal in the United
States District Court Eastern
District of Missouri Southeastern
Division, Case No. 1:19-cv-00039SNLJ
(March, 2020). . . . . . . . . . . . . App. 24

Appendix D

Memorandum and Order in the
United States District Court
Eastern District of Missouri
Southeastern Division, Case No.
1:19-cv-00039-SNLJ
(May 5, 2020) . . . . . . . . . . . . . App. 26

Appendix E

Order on Petition for Panel
Rehearing in the United States
Court of Appeals for the Federal
Circuit, 2020-1995
(April 23, 2021) . . . . . . . . . . . App. 32

App. 1

APPENDIX A
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
2020-1995
[Filed: March 8, 2021]
___________________________
ENCO SYSTEMS, INC.,
)
)
Plaintiff-Appellant
)
)
v.
)
)
DAVINCIA, LLC,
)
)
Defendant-Appellee
)
___________________________)
Appeal from the United States District Court for the
Eastern District of Missouri in No. 1:19-cv-00039SNLJ, Judge Stephen N. Limbaugh, Jr.
______________________
Decided: March 8, 2021
______________________
BRAD SMITH, Endurance Law Group PLC, Jackson,
MI, for plaintiff-appellant. Also represented by
MATTHEW L. CUTLER, Harness, Dickey & Pierce, P.L.C,
St. Louis, MO; JAMES BRADLEY LUCHSINGER, Troy, MI.

App. 2
DENNIS J. ABDELNOUR, Honigman LLP, Chicago, IL,
for defendant-appellee. Also represented by J. MICHAEL
HUGET, Ann Arbor, MI.
______________________
Before TARANTO, CHEN, AND STOLL, Circuit Judges.
TARANTO, Circuit Judge.
ENCO Systems, Inc. owns U.S. Patent No.
7,047,191, titled “Method and System for Providing
Automated Captioning for AV Signals.” ENCO sued
DaVincia, LLC in the United States District Court for
the Eastern District of Missouri, alleging that DaVincia
infringed the ’191 patent. The district court held that
the ’191 patent claims are invalid under 35 U.S.C.
§ 101. ENCO Systems, Inc. v. DaVincia, LLC, 447 F.
Supp. 3d 916 (E.D. Mo. 2020). We affirm.
I
A
The ’191 patent describes an audio-visual (AV)
captioning system and method “using a speech-to-text
processing system and associating the caption data
with the AV signal.” ’191 patent, col. 2, lines 17–23.
Offering a solution to what it describes as costly and
error-prone human transcription, the ’191 patent’s
system includes several components that work in
concert to present captioned text accurately. Id., col. 3,
lines 11–52. The ’191 patent explains that incoming
audio can be separated from the whole of a video
camera’s AV signal and processed by a speech-to-text
processing system, which converts an audio signal into
text using “conventional speech-to-text software.” Id.,

App. 3
col. 3, line 53 through col. 4, line 23. Thereafter, an
encoder processes the received text “to produce a
captioned AV signal by associating the text data with
the original AV signal,” id., col. 4, lines 37–45, before
that captioned AV signal is sent to a display device for
presentation to a user, id., col. 5, line 62 through col. 6,
line 2. See also id., col. 6, line 16 through col. 7, line 26
(describing Fig. 2). At least one embodiment of the ’191
patent includes an “autoflush counter” as part of the
speech-to-text processor that sets “[discrete] time
intervals” by which the system will process portions of
an AV signal. Id., col. 8, lines 13–21.
Claim 1 of the ’191 patent recites:
1. A method for providing captioning in an AV
signal, the method comprising:
selecting a number of lines of caption data which
can be displayed at one time;
determining a type of a caption encoder being
used with a speech-to-text processing system;
retrieving settings for the speech-to-text
processing system to communicate with the
caption encoder based on the identification of the
caption encoder;
automatically identifying a voice and speech
pattern in an audio signal from a plurality of
voice and speech patterns with the speech-totext processing system;
training the speech-to-text processing system to
learn one or more new words in the audio signal;

App. 4
directly translating the audio signal in the AV
signal to caption data automatically with the
speech-to-text processing system, wherein the
direct translation is adjusted by the speech-totext processing system based on the training and
the identification of the voice and speech
pattern;
associating the caption data with the AV signal
at a time substantially corresponding with the
converted audio signal in the AV signal from
which the caption data was directly translated
with the speech-to-text processing system,
wherein the associating further comprises
synchronizing the caption data with one or more
cues in the AV signal; and
displaying the AV signal with the caption data
at the time substantially corresponding with the
converted audio signal in the AV signal, wherein
the number of lines of caption data which is
displayed is based on the selection.
Id., col. 10, lines 18–50. The ’191 patent includes
twenty-one claims in total; among them are
independent apparatus claims 8 and 15, whose
limitations are similar to those of method claim 1. See
id., col. 11, lines 8–35; id., col. 12, lines 1–35.
B
ENCO sued DaVincia on March 7, 2019, in the
Eastern District of Missouri for infringement of the
’191 patent. On May 13, 2019, DaVincia filed a motion
to dismiss under Rule 12(b)(6), arguing in relevant part
that the ’191 patent claimed patent-ineligible subject

App. 5
matter under 35 U.S.C. § 101. Applying the framework
of Alice Corp. Pty. Ltd. v. CLS Bank International, 573
U.S. 208 (2014), the district court first determined that
the claims are directed to the abstract idea of
automated stenography processes implemented on a
computer. ENCO, 447 F. Supp. 3d at 921–22. The
district court explained that the claims “suffer[] from
the same high-level generalities and broad-form
functional terminology” that this court rejected as
ineligible under § 101 in University of Florida Research
Foundation, Inc. v. General Electric Co., 916 F.3d 1363
(Fed. Cir. 2019). ENCO, 447 F. Supp. 3d at 922. The
district court then determined that the claims do not
include an “inventive concept” beyond the abstract idea
because they rely on “self-described conventional
computer components” arranged for functional
purposes without a “particularized and concrete”
configuration. Id. at 922–23. Based on those
determinations, the court dismissed ENCO’s case with
prejudice. Id. at 923. The court subsequently denied
ENCO’s motion for reconsideration and request for
leave to amend its complaint. See ENCO Systems, Inc.
v. DaVincia, LLC, No. 1:19-cv-00039, 2020 WL
2129680, at *2 (E.D. Mo. May 5, 2020).
ENCO timely appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(1).
II
On appeal, ENCO argues that the claims of the ’191
patent are not directed to an abstract idea and, in any
event, include inventive concepts. We disagree.

App. 6
We review a district court’s dismissal for failure to
state a claim under the law of the regional circuit,
which here requires that we review the district court’s
dismissal de novo and take all facts alleged in the
complaint as true. See Univ. of Fla., 916 F.3d at 1367;
Kelly v. City of Omaha, 813 F.3d 1070, 1075 (8th Cir.
2016). Subject-matter eligibility under § 101 is a
question of law based on underlying facts. See Aatrix
Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, 1125 (Fed. Cir. 2018). “Like other legal questions
based on underlying facts, this question may be, and
frequently has been, resolved on a Rule 12(b)(6) . . .
motion where the undisputed facts, considered under
the standards required by that Rule, require a holding
of ineligibility under the substantive standards of law.”
SAP America, Inc. v. InvestPic, LLC, 898 F.3d 1161,
1166 (Fed. Cir. 2018).
Section 101 provides that “[w]hoever invents or
discovers any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of
this title.” 35 U.S.C. § 101. But § 101 “contains an
important implicit exception: Laws of nature, natural
phenomena, and abstract ideas are not patentable.”
Alice, 573 U.S. at 216 (internal quotation marks
omitted). “A claim falls outside § 101 where (1) it is
directed to a patent-ineligible concept, i.e., a law of
nature, natural phenomenon, or abstract idea, and (2),
if so, the particular elements of the claim, considered
both individually and as an ordered combination, do
not add enough to transform the nature of the claim

App. 7
into a patent-eligible application.” SAP America, 898
F.3d at 1166–67 (internal quotation marks omitted).
A
Under the first step of the Alice framework, we
consider “what the patent asserts to be the ‘focus of the
claimed advance over the prior art.’” Solutran, Inc. v.
Elavon, Inc., 931 F.3d 1161, 1168 (Fed. Cir. 2019)
(quoting Affinity Labs of Tex., LLC v. DIRECTV, LLC,
838 F.3d 1253, 1257 (Fed. Cir. 2016)). In this case,
claim 1, together with the specification, makes clear
that the focus of the claimed advance is simply the
abstract idea of automating the AV-captioning process.
That process, consisting of converting audio to text and
associating the text with corresponding video, is not
itself asserted to be an advance over the prior art. The
focus is not any specific improved computer techniques
for performing those functions—functions intrinsic to
the concept of AV captioning—but simply the use of
computers to “conserve human resources” by
automating work otherwise performed through human
labor. Univ. of Fla., 916 F.3d at 1367.1
“‘[C]laiming the improved speed or efficiency
inherent with applying the abstract idea on a computer’
[is] insufficient to render the claims patent eligible.”

1

Although ENCO contends on appeal that claim 1 is not
representative, see ENCO Opening Br. 11, it provided no separate
argument regarding dependent claims 3, 7, 10, 13, 14, and 21
(requiring “timers,” “counters,” and time-related thresholds) in the
district court and therefore forfeited such argument. We therefore
treat claim 1 as representative. See Affinity Labs, 838 F.3d at 1256
n.1.

App. 8
Customedia Techs., LLC v. Dish Network Corp., 951
F.3d 1359, 1364 (Fed. Cir. 2020) (quoting Intell.
Ventures I LLC v. Capital One Bank (USA), 792 F.3d
1363, 1367, 70 (Fed. Cir. 2015)). In University of
Florida, we held claims focused just on replacing “pen
and paper methodologies” with “data synthesis
technology”—without a focus on specific, assertedly
improved processing techniques—to be directed to an
abstract idea. 916 F.3d at 1367. The same focus is
evident here, not just from the non-specific nature of
the claim language, but from the specification. See ’191
patent, col. 1, lines 24–56 (in describing the asserted
advance, focusing on the fact that in prior-art systems,
“captions are either typed-in from a script or are typed
in real-time by stenographers” or “an individual listens
to a recorded audio signal and manually inputs the
caption information as text in a computer”). The
advance is only at the abstract level of computerization
because claim 1 fails to set forth specific techniques for
processing the data, instead reciting known computer
techniques for automation of known processes. See
Univ. of Fla., 916 F.3d at 1368; see also In re
Mohapatra, No. 2020–1935, 2021 WL 408755, at *3
(Fed. Cir. Feb. 5, 2021) (“[T]his court has frequently
looked to whether the claims are sufficiently concrete
or specific to be directed to a patent-eligible process
rather than a patent- ineligible result.”); cf. McRO, Inc.
v. Banda Namco Games America Inc., 837 F.3d 1299,
1313 (Fed. Cir. 2016) (finding claims not to be directed
to an abstract idea where claims were “limited to rules
with specific characteristics” and “set out meaningful
requirements for the first set of rules” for the creation
of better animation images, as confirmed by the
specification (internal quotation marks omitted)).

App. 9
ENCO suggests that the Patent and Trademark
Office’s recently designated “informative” decision, Ex
parte Hannun, No. 2018-003323, 2019 WL 7407450
(P.T.A.B. Apr. 1, 2019) (previously captioned Ex parte
Linden), requires a finding that the ’191 patent claims
are not focused on abstract subject matter. ENCO
Opening Br. 29–31. We disagree. We are not bound by
internally precedential decisions of the Patent Trial
and Appeal Board that seek to follow this court’s
precedents, which we apply directly. See In re Rudy,
956 F.3d 1379, 1383 (Fed. Cir. 2020). In any event, the
Board in Hannun ruled patent eligible claims that
recited automatic speech-recognition methods that
were “directed to a specific implementation” of
processing data by measuring tailored parameters
identified within audio files. Hannun, 2020 WL
7407450, at *5. No such specificity exists here. We
conclude that the claims of the ’191 patent are directed
to an abstract idea.
B
The claims also fail under the second step of the
Alice framework because they do not set forth an
inventive concept that would transform their subject
matter into something more than the abstract idea.
The claims do not incorporate anything more
beyond conventional computing hardware and
software, which do not transform the subject matter
into an eligible application of the abstract idea. The
specification, with respect to each part of the system,
including the audio-to-text conversion, explains that
“conventional” components and techniques can be used.

App. 10
See, e.g., ‘191 patent, col. 3, lines 53–56; id., col. 4, lines
17–20; id., col. 4, lines 37–41; id., col. 5, lines 13–16;
id., col. 9, line 67 through col. 10, line 5.2 No factual
issues preclude deciding § 101 eligibility in this case
under Rule 12(b)(6). See Secured Mail Sols. LLC v.
Universal Wilde, Inc., 873 F.3d 905, 913 (Fed. Cir.
2017) (“In ruling on a 12(b)(6) motion, a court need not
‘accept as true allegations that contradict matters
properly subject to judicial notice or by exhibit,’ such as
the claims and the patent specification.” (citation
omitted)). Understood in light of the specification,
representative claim 1 of the ’191 patent requires
nothing more than “off-the-shelf, conventional
computer . . . and display technology for gathering,
sending, and presenting the desired information.” Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1355
(Fed. Cir. 2016).
ENCO also argues that the Board’s decision not to
institute DaVincia’s parallel petition for an inter partes
review on obviousness grounds undermines our
conclusion. See ENCO Opening Br. 34; ENCO Reply Br.
19–20. It does not. We have explained that satisfying
the requirements of non-obviousness does not imply
eligibility under § 101, including under the second step
of the Alice inquiry, because what may be non-obvious
can still be abstract. See Chamberlain Grp., Inc. v.
Techtronic Indus. Co., 935 F.3d 1341, 1348–49 (Fed.
Cir. 2019); SAP America, 898 F.3d at 1163.

2

Even the “training” required by claim 1 is described in the
specification by reference to the available “Dragon” speech-to-text
software. See ’191 patent, Fig. 3; id., col. 3, lines 53–56; id., col. 7,
lines 31–40.

App. 11
We have considered ENCO’s remaining arguments
and find them unpersuasive.
III
For the foregoing reasons, we affirm the district
court’s grant of DaVincia’s motion to dismiss.
AFFIRMED

App. 12

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
SOUTHEASTERN DIVISION
Case No. 1:19-cv-00039-SNLJ
[Filed March 20, 2020]
___________________________
ENCO SYSTEMS, INC.,
)
)
Plaintiff,
)
)
v.
)
)
DaVINCIA, LLC.,
)
)
Defendant.
)
___________________________)
MEMORANDUM AND ORDER
This matter comes before the Court on defendant
DaVincia LLC.’s motion to dismiss under 35 U.S.C.
§ 101 and Rule 12(b)(6). [ECF #18]. For the reasons
that follow, DaVincia’s motion is GRANTED and this
case is DISMISSED with prejudice.
I. BACKGROUND
This is a patent infringement action involving two
competitors in the manufacture and sale of automated

App. 13
audio-visual (“AV)” captioning equipment for television
broadcasters and “other forms of transmitted AV
signals.” Since October 2017, Enco has been the owner
of United States Patent No. 7,047,191 (the “191
Patent”) entitled “Method and System for Providing
Automated Captioning for AV Signals.” Enco says
DaVincia sells various automated AV captioning
systems—including the “ACE 2000,” “ACE 2100,” and
“ACE 2200" (the “Accused Products”)—that “practice
the claimed invention of the 191 Patent.” As such, Enco
asserts two counts for direct infringement (Count I)
and indirect infringement (Count II) of the 191 Patent.
The 191 Patent was issued by the United States
Patent and Trademark Office (“USPTO”) on May 16,
2006, and is summarized as a “method for providing
captioning” using an “AV captioning system.” That
system is composed of a speech-to-text processor, a
signal separation processor, an encoder, a video
camera, and a display device. Figure 1 shows a
particular configuration of the “video camera [being]
operatively coupled to [a] signal processing system, [a]
speech-to-text processor system [being] operatively
coupled to [the aforementioned] signal separation
processing system and to [an] encoder, and [the]
encoder [being] operatively coupled to [a] displace
device.”1 But, “other configurations for AV captioning
1

App. 14
system with other components may also be used.” In
any event, the speech-to-text processor system, signal
separation processing system, encoder, video camera,
and display device may each take any “conventional”
form—that is to say, none of these components are
uniquely created or improved by the invention, but
borrow from existing (and interchangeable)
technologies. The 191 Patent suggests, for example,
that the speech-to-text processor take the form of a
“software application such as [] Dragon Dictate.”
Whereas, the encoder could be “a Link Electronics
PCE-845 Caption Encoder or any other device that can
receive and process text data to produce a captioned AV
signal.” The Display Device, meanwhile, “may comprise
… a projection screen, television, or computer display,
so long as the particular display is capable of receiving,
processing, and displaying an AV signal[.]” One
claimed advantage of the 191 Patent, in fact, was to
produce captioning data for AV broadcasts “without
the need for any special hardware other than what
is presently available in the field of captioning
equipment.” (emphasis added).
In practice, the 191 Patent’s method and system is
purposed to avoid complications associated with
human-transcribed captioning methods. According to
the patent, human methods are expensive, timeconsuming (particularly in post-broadcast captioning
requiring much rewinding), and “prone to error [in live
broadcast captioning] since there is a finite amount of
time within which to correct mistakes[.]” The 191
Patent’s automated system, by contrast, is “able to
quickly and inexpensively produce captioning data for
AV broadcasts.”

App. 15
The 191 Patent asserts 21 total claims. Of those,
Enco says the 191 Patent comprises “three independent
claims for a method (claim 1), system (claim 8), and a
medium (claim 15) for automatically inserting captions
into AV signals, as well as 18 dependent claims.” The
complaint alleges DaVincia is “directly infringing at
least claims 1-14 of the 191 Patent … by using the
Accused Products without authority” and is “directly
infringing at least claims 15-21 … by making, using,
selling, and or offering to sell the Accused Products
without authority.” It also alleges DaVincia is
“inducing infringement … and/or committing
contributory infringement … of at least claims 1-6, 812, and 14-21 of the 191 Patent.” In sum, the complaint
alleges DaVincia is directly infringing Patent 191’s
method and system claims and is indirectly infringing
Patent 191’s medium claim.
DaVincia moves to dismiss all asserted claims
against it under Rule 12(b)(6), arguing the 191 Patent
is unpatentable under 35 U.S.C. § 101 as a mere
abstract idea.
II. STANDARD OF REVIEW
The Supreme Court has articulated a two-step
framework for assessing patentability under Section
101. See Alice Corp. Pty. Ltd. v. CLS Bank Intern., 573
U.S. 208 (2014). First, the court “determine[s] whether
the claims at issue are directed to a patent-ineligible
concept,” such as “[l]aws of nature, natural phenomena,
and abstract ideas.” Id. at 216, 218. If so, the court
moves on to determine whether the claim nonetheless
contains an “inventive concept” sufficient to “transform

App. 16
the nature of the claim into a patent-eligible
application.” Id. at 217, 221; see also Koninklijke KPN
N.V. v. Gemalto M2M GmbH, 942 F.3d 1143 (Fed. Cir.
2019). “Whether a claim supplies an inventive concept
that renders a claim significantly more than an
abstract idea to which it is directed is a question of law
that may include underlying factual determinations.”
ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759,
773 (Fed. Cir. 2019) (internal quotations omitted).
Because patents are presumed valid, factual
determinations of a patent’s validity or invalidity must
be proven by clear and convincing evidence. Id.;
Microsoft Corp. v. I4I Ltd. P’ship, 564 U.S. 91, 95
(2011). “For example, within the overall step two
analysis, whether a claim element or combination of
elements is well understood, routine and conventional
to a skilled artisan in the relevant field is a question of
fact that must be proven by clear and convincing
evidence.” ChargePoint, Inc., 920 F.3d at 773.
In this case, DaVincia argues the 191 Patent is an
unpatentable abstract idea. The “abstract ideas
category embodies the longstanding rule that an idea
of itself is not patentable.” Alice Corp., 573 U.S. at 218;
see also Gottschalk v. Benson, 409 U.S. 63, 71 (1972)
(“It is conceded that one may not patent an idea.”). Said
differently, “[a] principle, in the abstract, is a
fundamental truth; an original cause; a motive; these
cannot be patented, as no one can claim in either of
them an exclusive right.” Diamond v. Diehr, 450 U.S.
175, 185 (1981) (quoting Le Roy v. Tatham, 14 L.Ed.
367 (1853)). Thus, as an example, a patent seeking to
monopolize a general method for hedging risk in the
energy commodities market—reduced to a

App. 17
mathematical formula and adding only “token”
inventive contributions—has been deemed too abstract
as what is essentially a retelling of “fundamental
economic practice[s] … taught in any introductory
finance class.” Bilski v. Kappos, 561 U.S. 593, 611-12
(2010). In a more recent example, the Federal Circuit
concluded that a claim which “simply recite[s] a system
that wirelessly communicates status information”
about a movable barrier, such as a garage door opener,
was directed to an abstract idea of communicating
information wirelessly and did not contain an inventive
concept because the invention used “well understood,”
off-the-shelve wireless technology without particular
“technological improvement.” Chamberlain Group, Inc.
v. Techtronic Industries Co., 935 F.3d 1341, 1347-1348
(Fed. Cir. 2019).
III. ANALYSIS
A. Alice Corp., Step One – Whether the Claims
are Directed to Patent-Ineligible Concepts
The 191 Patent states that it is “a method and
system for providing automated captioning for AV []
signals,” and that it is a method and system designed
to replace human-directed stenography with computerdirected alternatives. The benefit of the 191 Patent, it
is explained, is to automate stenography processes with
less-fallible computer systems. The question, here, is
whether such a method and system falls into the
unpatentable category of an abstract idea.
DaVincia relies on Univ. of Fla. Research Found.,
Inc. v. General Electric Co., which Davincia says is

App. 18
indistinguishable from the case at hand. See 916 F.3d
1363 (Fed. Cir. 2019). In that case, a patent known as
the “251 Patent” described a method and system for
automating the taking of patient bedside physiological
data. Id. at 1366-1367. The 251 Patent explained how
“most health care facilities … acquire bedside patient
information using pen and paper methodologies”—that
is to say, the collection of data by humans to later be
entered into computer information systems—which can
be “time consuming and expensive” and result in
“transcription errors” in a “fast-paced environment.” Id.
at 1367. To remedy those human deficiencies, the 251
Patent “propose[d] replacing the pen and paper
methodologies with data synthesis technology” in the
form of “device drivers” written to allow various
bedside machines to present data in a “configurable
fashion within a signal interface.” Id.
On the first step of the Alice Corp. analysis, the
Federal Circuit concluded Patent 251 “is a
quintessential ‘do it on a computer’ patent,” effectively
proposing—at a broad and overly-generalized
level—simply to replace manual collection, analysis,
and manipulation of data with computer-driven
alternatives. Id. Thus, it was “directed to abstract
ideas,” failing to “specific[ally] improve[] the ways
computers operate” or else explain “how the [device]
drivers,” the only real proposed technological advance,
were able to convert machine-specific data into globally
usable data by a single graphical interface. Id. at 1368.
In fact, “[t]he 251 patent fails to provide any technical
details for the tangible components[,] instead
predominately describing the system and methods in
purely functional terms.” Id. Describing the patent as

App. 19
a method and system of high-level functional ideas, and
not discrete patentable technical advancements, the
Court went on to remark that many components of the
251 Patent were interchangeable and relied on present
art. For example, the component linking bedside
machines “employs any serial connection that can
convey information,” and the “programmatic action
involving said machine-independent data” can “be
performed using any kind of computer system or other
apparatus, including a general-purpose computing
system.” Id. (emphasis added). Meanwhile, the “bedside
graphical user interface” that displays the synthesized
bedside machine data was not “limited by [a] particular
[graphical user interface] or data entry mechanism.”
All in all, the 251 Patent was directed merely to the
“abstract idea of collecting, analyzing, manipulating,
and displaying data” with the replacement of humans
by computers. Id.
That is also the case here. The 191 Patent takes a
collection of “conventional,” off-the-shelf computer
components—a speech-to-text processor system, signal
separation processing system, encoder, video camera,
and display device—and proposes to replace humans
with the coupled-together result. The patent does not
endeavor to improve any particular component, nor
does it offer a new intervening component within the
larger system or a novel composition of the various
components. In fact, like Univ. of Fla. Research, the
components are interchangeable and the 191 Patent,
therefore, suffers from the same high-level generalities
and broad-form functional terminology as the
unpatentable 251 Patent. As such, the 191 Patent is

App. 20
essentially a “do it on a computer” patent—a patentineligible abstract idea.
A.

Alice Corp., Step Two – Whether the
Claims Have an Inventive Concept
Sufficient to Transform Them into
Patent-Eligible Applications

At step two, Alice Corp. tells us that a patent may
still be saved—notwithstanding that it has been
directed to a patent-ineligible concept—if “an element
or combination of elements [of each claim]” create an
“inventive concept” that transforms the patent, either
in “practice” or “application,” into something
“significantly more than a patent upon the ineligible
concept itself.” 573 U.S. 217-218. In other words, step
two asks whether an inventive concept arises “in one or
more of the individual claim limitations or in the
ordered combination of the limitations.” BASCOM
Global Internet Servs., Inc. v. AT&T Mobility, LLC.,
827 F.3d 1341, 1349 (Fed. Cir. 2016).
Here, each individual claim limitation relies either
on self-described conventional computer components,
such as the Dragon Dictate speech-to-text processor
and the Link Electronics PCE-845 caption encoder, or
else functionally describes potentially inventive
improvements like training enhancements (to be
applied to the speech-to-text processor) without at all
explaining how those enhancements work. That is no
concern, Enco says, because “the fact that one or more
of the steps in the claimed invention may not, in
isolation, be novel … is irrelevant to the question of
whether the claims as a whole recite subject-matter

App. 21
eligible for patent protection.” Enco points to two flow
charts (Figures 2, 5) that it says shows unique
combinations of conventional computer components to
create what is an inventive concept.
It is true that “an inventive concept can be found in
the non-conventional and non-generic arrangement of
known, conventional pieces.” BASCOM Global Internet
Servs., Inc., 827 F.3d at 1350; see also Diamond, 450
U.S. at 188 (“[A] new combination of steps in a process
may be patentable even though all the constituents of
the combination were well known and in common use
before the combination was made.”). This follows from
the recognition that “inventions usually rely upon
building blocks [of early inventions] long since
uncovered.” KSR Int’l Co. v. Teleflex, Inc., 550 U.S. 398,
401 (2007). However, such a combination or
arrangement of conventional pieces must be
particularized and concrete in its configuration.
“Merely recit[ing] the abstract idea [] along with the
requirement to perform it on [] a set of generic
computer components do[es] not contain an inventive
concept.” University of Fla. Research Found., 916 F.3d
at 1369.
And that is the problem for the 191 Patent at this
second step. It is based on interchangeable components
and interchangeable composition of those components.
There is “[no] need for any special hardware,” just
“conventional” components of any variety sufficient to
achieve the stated function, and various “configurations
[of the] AV captioning system … [can] be used.” In that
regard, the patent calls for any “conventional speechto-text software application,” such as “Dragon Dictate,”

App. 22
and then refers to various “operation process[es]” those
variable applications are expected to do, according to
Figure 4 and 5, such as utilizing an “autoflush counter”
or “determin[ing] when to send [] text [data] to the
encoder.” But, nowhere does the 191 Patent suggest its
purpose is to specifically improve speech-to-text
processing software, and nowhere does it explain how
this is to be accomplished—across myriad software
iterations—at a technical level.2 Simply put, there are
references to things like “autoflush counters” and
computer-determined communication relays between
speech-to-text processors and encoders, but nothing at
all to explain how those functional operations are
implemented at an inventive level. This is insufficient
to create an inventive concept that transforms the
patent into something more than a patent upon the
ineligible concept itself. See Solutran, Inc. v. Elavon,
Inc., 931 F.3d 1161 (Fed. Cir. 2019) (concluding a
patent proposing the electronic processing of paper
checks was directed to an abstract idea where the

2

On this point, Enco takes issue with ChargePoint, Inc., v.
SemaConnect, Inc.—a Federal Circuit case that found ineligible a
patent that claimed to improve electric vehicle charging stations
by adding generic networking capabilities. 920 F.3d at 774-775.
Enco says ChargePoint is “believe to be the only improved machine
[case] that the Federal Circuit has found directed to an abstract
idea,” and points out how it has been “uniformly condemned by the
patent bar.” (emphasis in original). Be that as it may, ChargePoint
remains good law and helpfully points to the same concern this
Court has for the 191 Patent: namely that an abstract idea cannot
be transformed into a patentable one simply by claiming an
improvement through the addition of generic equipment. Id. (claim
did not improve charging stations by merely seeking to “add
generic networking capabilities to [them]”).

App. 23
claims were highly generalized, relied predominately
on conventional activities of general-purpose
computers, and failed to articulate a specific
improvement of the way computers operate); Elec.
Power Group, LLC. v. Alstrom S.A., 830 F.3d 1350
(Fed. Cir. 2016) (concluding a method of detecting and
analyzing electric power grid events, with no inventive
technology used to perform those functions, was an
abstract idea urging the use of computer technology
generally); Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336 (Fed. Cir.
2013) (concluding that patent, which implements an
abstract concept through the arrangement of
generalized software components, without
incorporating additional imitations or features, fails to
turn the abstract idea into an inventive concept).
IV. CONCLUSION
Accordingly,
IT IS HEREBY ORDERED that defendant
DaVincia LLC.’s motion to dismiss under 35 U.S.C.
§ 101 and Rule 12(b)(6) [ECF #18] is GRANTED. This
case is DISMISSED with prejudice.
So ordered this 20th day of March 2020.
/s/ Stephen N. Limbaugh,Jr.
STEPHEN N. LIMBAUGH, JR.
UNITED STATES DISTRICT JUDGE

App. 24

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
SOUTHEASTERN DIVISION
Case No. 1:19-cv-00039-SNLJ
[Filed March 20, 2020]
___________________________
ENCO SYSTEMS, INC.,
)
)
Plaintiff,
)
)
v.
)
)
DaVINCIA, LLC.,
)
)
Defendant.
)
___________________________)
ORDER OF DISMISSAL
In accordance with the memorandum and order
entered today, it is hereby ordered that this case is
DISMISSED with prejudice.
So ordered this 20th day of March 2020.

App. 25
/s/ Stephen N. Limbaugh,Jr.
STEPHEN N. LIMBAUGH, JR.
UNITED STATES DISTRICT JUDGE

App. 26

APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
SOUTHEASTERN DIVISION
Case No. 1:19-cv-00039-SNLJ
[Filed May 5, 2020]
___________________________
ENCO SYSTEMS, INC.,
)
)
Plaintiff,
)
)
v.
)
)
DaVINCIA, LLC.,
)
)
Defendant.
)
___________________________)
MEMORANDUM AND ORDER
This matter comes before the Court on plaintiff
Enco Systems, Inc.’s motion for reconsideration (ECF

App. 27
#37) under Rule 60(b)(1) and 60(b)(6).1 For the
following reasons, the motion is DENIED.
On March 20, 2020, this Court held that United
States Patent No. 7,047,191 (the “191 Patent”) is
unpatentable under 35 U.S.C. § 101 as a mere abstract
idea. See Enco Sys., Inc. v. DaVincia, LLC., -F.Supp.3d --, 2020 WL 1323035 (E.D. Mo. Mar. 20,
2020). The 191 Patent is summarized as a “method for
providing captioning” using an “AV captioning system.”
In rejecting the 191 Patent, this Court explained that
The 191 Patent takes a collection of
“conventional,” off-the-shelf computer
components—a speech-to-text processor system,
1

There is some argument whether Enco’s Rule 60(b) motion
should be entertained at all in that “it is not a vehicle for simple
rearguments on the merits.” Broadway v. Norris, 193 F.3d 987, 990
(8th Cir. 1999). Certainly, Enco identifies no “extraordinary
circumstances” for which to apply Rule 60(b)(6)—so that angle
fails. See Buck v. Davis, 137 S.Ct. 759, 777 (2017) (“Rule 60(b)(6)
is available only in extraordinary circumstances.”). And, as
understood by the brief, Enco’s reliance on Rule 60(b)(1) is based
on this Court’s own purported inadvertence in failing to originally
address certain of Enco’s arguments. See Lowry v. Mcdonnell
Douglas Corp., 211 F.3d 457, 461 (8th Cir. 2000) (noting Rule
60(b)(1), when alleging judicial error, is limited to “judicial
inadvertence”). That, too, would be an inappropriate
challenge—essentially a re-attack on the merits. In truth, this
Court did not speak at length on Enco’s arguments made the basis
of its motion to reconsider because the Court found them to be a
red herring. But, given the developing nature of Federal Circuit
law on the appropriateness of granting Rule 12(b)(6) dismissals
under Section 35 U.S.C. § 101—specifically from an opinion
penned in 2018—this Court will briefly clarify why Enco’s
argument fails.

App. 28
signal separation processing system, encoder,
video camera, and display device—and proposes
to replace humans with the coupled-together
result. The patent does not endeavor to improve
any particular component, nor does it offer a
new intervening component within the larger
system or a novel composition of the various
components. In fact, like Univ. of Fla. Research,
the components are interchangeable and the 191
Patent, therefore, suffers from the same highlevel generalities and broad-form functional
terminology as the unpatentable 251 Patent. As
such, the 191 Patent is essentially a “do it on a
computer” patent—a patent-ineligible abstract
idea.
Id. (citing Univ. of Fla. Research Found., Inc. v.
Gen. Elec. Co., 916 F.3d 1363 (Fed. Cir. 2019)).
In seeking reconsideration, Enco chiefly relies on
Berkheimer v. HP Inc., 881 F.3d 1360 (Fed. Cir. 2018).
The argument goes that this Court failed to address the
inappropriateness of “dismissal on § 101 grounds [] at
the pleading stage [where] there are factual
questions regarding whether the claimed
invention was well understood, routine, and
conventional” at the time of patent application.
(emphasis added). Enco says DaVincia “has not proven
by clear and convincing evidence that the claim
elements—standing alone and especially in
combination—were well-understood, routine, and
conventional.” Enco closes its brief by reminding this
Court that “the Federal Circuit will want this Court’s
assessment of this issue if and when Enco appeals.”

App. 29
Berkheimer is a cautionary tale to district courts
that “[w]hether a claim recites patent eligible subjectmatter is a question of law which may contain
disputes over underlying facts.” Id. at 1368
(emphasis added). Of course, where there are
underlying factual disputes genuinely complicating a
question of law—the so-called “mixed question of law
and fact”—it is inappropriate to grant a motion to
dismiss. See Aatrix Software, Inc. v. Green Shades
Software, Inc., 882 F.3d 1121, 1128 (Fed. Cir. 2018)
(referring to Section 101 eligibility determinations as
a “question of law” that may possess “subsidiary fact
questions” that render 12(b)(6) dismissals
inappropriate); see also BSG Tech, LLC. v. Buyseasons,
Inc., 899 F.3d 1281, 1290 (Fed. Cir. 2018) (“[w]e have
recently held that whether a claim limitation or
combination of limitations is well-understood, routine,
and conventional is a factual question” that may create
a “genuine dispute [that] precludes summary judgment
that a claim is ineligible under § 101.”). But,
Berkheimer was careful to emphasize that “[p]atent
eligibility has in many cases been resolved on motions
to dismiss” and “[n]othing in this decision should be
viewed as casting doubt on the propriety of those
decisions.” Berkheimer, 881 F.3d at 1368. Berkheimer
mandates no absolute rule at the early pleading
stage—either in favor of or against Rule 12(b)(6)
dismissals. In fact, the Federal Circuit has affirmed
Rule 12(b)(6) dismissals following Berkheimer. See, e.g.,
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
Inc., 915 F.3d 743 (Fed. Cir. 2019). The issue then, as
later clarified by the Federal Circuit, comes down to
this: are there “specific, plausible factual allegations
[in the complaint]” that, when accepted as true (as

App. 30
must be done at the dismissal stage), demonstrate how
“aspects of [the] claimed invention [are] not
conventional.” Cellspin Soft, Inc. v. Fitbit, Inc., 927
F.3d 1306, 1317-1318 (Fed. Cir. 2019) (emphasis
added); see also Aatrix Software, Inc., 882 F.3d at 1128
(reversing a Rule 12(b)(6) dismissal where there were
“concrete allegations in the second amended
complaint that individual elements and the claimed
combination are not well-understood, routine, or
conventional activity” (emphasis added)).
There are no such “concrete allegations” in the
complaint to embrace as true, Aatrix Software, Inc.,
882 F.3d at 1128, and so there is no genuine factual
dispute for which to render inappropriate a Rule
12(b)(6) dismissal. In fact, rather than providing
“specific, plausible factual allegations” supporting the
unconventionality of the invention, the complaint only
generically references the 21 claims of the 191 Patent,
which itself embraces both interchangeable
“conventional” components and interchangeable
“configurations” of those components. The 191 Patent
boasts that it specifically does not call for “any special
hardware other than what is presently available,” and,
having divorced itself from a specific or particular
composition, there is no apparent unconventionality in
“the claim[ed] elements[’] combination” thereof.
Therefore, while respecting Berkheimer and its
progeny, this Court finds no reason to disturb its
decision in this case. Enco’s motion is denied.
Accordingly,

App. 31
IT IS HEREBY ORDERED that plaintiff Enco
Systems, Inc.’s motion for reconsideration (ECF #37) is
DENIED.
So ordered this 5th day of May 2020.
/s/ Stephen N. Limbaugh,Jr.
STEPHEN N. LIMBAUGH, JR.
UNITED STATES DISTRICT JUDGE

App. 32

APPENDIX E
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
2020-1995
[Filed: April 23, 2021]
___________________________
ENCO SYSTEMS, INC.,
)
)
Plaintiff-Appellant
)
)
v.
)
)
DAVINCIA, LLC,
)
)
Defendant-Appellee
)
___________________________)
Appeal from the United States District Court for the
Eastern District of Missouri in No. 1:19-cv-00039SNLJ, Judge Stephen N. Limbaugh, Jr.
______________________
ON PETITION FOR PANEL REHEARING
______________________

App. 33
Before TARANTO, CHEN, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Enco Systems, Inc. filed a petition for panel
rehearing.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing in denied.
The mandate of the court will issue on April 30,
2021.
FOR THE COURT
April 23, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

